 DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


      St. Bernard Parish, Louisiana’s 

              Management of 

      State Homeland Security Grants 

     Awarded For the Removal of Debris 

          From Hurricane Katrina 

                (Redacted) 





   Notice: The Department of Homeland Security, Office of Inspector General, has redacted
   this report for public release. The redactions are identified as (b)(2), comparable to 5
   U.S.C. 552 § (b)(2). A review under the Freedom of Information Act will be conducted upon
   request.




DD-07-02                                                        November 2006
                                                                           Ofice c$lnspecrtor General

                                                                           U.S. Department of Homeland Security

                                NQV '3 0 2006
                                                            0   -.m-.




                                                             +-.+
                                                               +ND S E ~
                                                                           Washington, DC 20528


                                                                           Homeland
                                                                           Security
                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002(Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published as part of our
DHS oversight responsibilities to promote economy, effectiveness, and efficiency within the
Department.

The attached report presents the results of a review of the St. Bernard Parish, LouiSiana's
management of DHS grants awarded for the removal of debris created by Hurricane Katrina. We
contracted with the independent public accounting firm Foxx & Company to perform the review.
Foxx & Company's report identified five reportable conditions. The conditions included non­
compliance with Federal requirements, claims for ineligible or unreasonable costs, and opportunities
for improved controls and accuracy during the debris removal process: The review also noted other
issues that impacted the Parish's progress in removing debris. These issues and the reportable
conditions are discussed in the attached report.

Foxx & Company is responsible for the attached report dated September 30,2006, and the
conclusions expressed in the report.

The recommendations herein were discussed in draft with State and Parish officials responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.



                                              Matt Jadacki
                                              Deputy Inspector General
                                              Disaster Assistance Oversight
September 30, 2006

Office of Inspector General
U.S. Department of Homeland Security
Washington, D.C.

Foxx & Company performed a review of ongoing Hurricane Katrina debris removal
activities in St. Bernard Parish, Louisiana. The objective of the review was to determine
whether the awarded contracts and contractor billings were in compliance with applicable
Federal criteria. Foxx also reviewed selected aspects of the overall management of debris
removal and monitoring within the Parish because of the magnitude of the devastation,
the volume of debris created by Katrina, and the length of time that it will take to
complete the removal process. Foxx performed the review according to Contract
Number GS-23F-9832H and Task Order TPD-FIG-06-K-00027 dated January 9, 2006.

The attached report includes recommendations to improve the Parish’s management of
the Department of Homeland Security (DHS) debris removal grants. Foxx & Company
discussed the review results in draft with cognizant DHS, State of Louisiana, and Parish
officials. The comments received were incorporated, as appropriate, within the body of
the report.

We appreciate the opportunity to have conducted this audit. If you have any questions, or
if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company


Martin W. O’Neill
Partner
                       TABLE OF CONTENTS/ACRONYMS
INTRODUCTION..........................................................................................................................1

RESULTS OF REVIEW ...............................................................................................................1

     Required Cost and Pricing Analysis not Performed ..................................................................1

     Ineligible Costs Claimed for Trees..................................................................... 4

     Questionable Costs Claimed Under the Monitoring Contract ..................................... 6

     Improved Controls Needed for Load Ticket Processing ........................................... 8

     Improved Accuracy Needed in Determining Debris Hauled .................................... 10

OTHER NOTABLE RESULTS......................................................................... 11

     Project Worksheets and payments Processes....................................................... 12

     Commercial Debris Removal Policy Implementation............................................. 13

DISCUSSIONS WITH MANAGEMENT ............................................................ 14

ATTACHMENTS: ....................................................................................... 15

     Schedule of Approved Project Worksheets ......................................................... 15

     Objective, Scope, and Methodology ................................................................. 16

     Report Distribution ..................................................................................... 17

ACRONYMS:

          CFR                  Code of Federal Regulations
          FEMA                 Federal Emergency Management Agency
          JFO                  Joint Field Office
          PW                   Project Worksheet
                                   INTRODUCTION 


Hurricane Katrina struck St. Bernard Parish on August 29, 2005. The devastation was
extensive. FEMA estimated that about 5,308,000 cubic yards of residential debris was
created within the Parish. By March 31, 2006, the cut-off date for our review, eight
Public Assistance Grant Program Project Worksheets had been approved for the removal
of debris from the Parish. The total amount approved for the eight Project Worksheets
was $98,902,752, including the grantee and subgrantee administrative allowances. A
schedule of the approved Worksheets is included as Attachment I. About 1,316,000
cubic yards of debris (about 25 percent of the total estimated) was removed from the
Parish by March 31, 2006.

According to the FEMA approved Project Worksheets, the cost of the debris removal was
to be 100 percent paid for by the Federal government until June 30, 2006. After June 30,
2006, the Federal sharing ratio would drop to 90 percent. The funding of the remaining
10 percent was the responsibility of the State of Louisiana (grantee). However, the
Department of Homeland Security extended the 100 percent Federal share to December
31, 2006.

RESULTS OF REVIEW

Although commendable progress has been made to clean up the Parish, a huge amount of
debris remains. As of March 31, 2006, about four million cubic yards of debris still
needed to be removed. The majority of the remaining debris will be from the demolition
of about 10,000 residential homes. According to Project Worksheet No. 3070, approved
June 8, 2006, about $137 million was included for the removal of demolition debris. On
June 23, 2006, an additional $11.8 million was obligated by FEMA for monitoring the
demolition effort.

Several reportable conditions were identified. The conditions included non-compliance
with Federal requirements, claims for ineligible or unreasonable costs, and opportunities
for improved controls and accuracy during the debris removal process. There were other
issues that impacted the Parish’s progress in removing debris. These issues and the
reportable conditions are discussed in detail below.

Required Cost and Pricing Analysis not Performed

St. Bernard Parish awarded a non-competitive contract for debris removal monitoring
activities without performing a cost or price analysis of the contract. The Parish did not
require the contractor to update its August 2002 established overhead rate, which was
included in the awarded contract. The contract also included cost-plus-a-percentage of
cost language which was a prohibited contracting methodology. As a result, the Parish
(1) did not comply with applicable Federal regulations and (2) did not demonstrate that
the fixed hourly rates established under the contract were reasonable.




                                             1

According to 44 CFR 13.36 (f) (1) a cost or price analysis must be performed in
connection with every noncompetitive procurement action including contract
modifications. Furthermore, according to 44 CFR 13.36 (f)(4), cost-plus-a-percentage of
cost methods of contracting shall not be used. Under 44 CFR 13.43 (a)(2) failure to
comply with applicable statutes or regulations can result in the disallowance of all or part
of the cost of the activity or action not in compliance.

On September 7, 2005, an engineering firm, that had been under contract with the Parish
for engineering services since April 2003, submitted a proposal to the Parish to provide
support for the Parish’s debris removal and recovery operations in the wake of Hurricane
Katrina. The proposed services included providing engineering and inspection services
to monitor the Parish’s debris removal contractor.

In December 2005, the Parish amended the April 2003 contract according to the firm’s
proposal and awarded a non-competitive contract. However, prior to the award, the
Parish did not perform a cost or price analysis of the firm’s proposed costs. The Parish
also did not require the firm to update its overhead rate included in the contract. The
overhead rate used to establish the fixed rates under the amended contract was 148.67
percent. This rate was established in December 2003 based upon an audit of the firm’s
costs for the 12 months ended August 31, 2002. In addition, no review was made of the
firm’s direct labor rates.

The awarded contract included a cost-plus-a-percentage of cost provision. The provision
provided that the Program Manager will be reimbursed for other direct costs charged to
the project at a rate not to exceed 1.10 times the direct costs. The adding of the 10
percent to direct costs constitutes a cost-plus-a-percentage of cost method of contracting.
Although the additional 10 percent was initially included in the contractor’s invoices, the
State deleted these amounts when the invoices were reviewed and approved.
Nevertheless, the prohibited language should be deleted from the contract.

During the last quarter of calendar year 2005, the firm converted 95 debris monitors, who
had been supporting the firm’s monitoring activities, to full time employee status. The
conversion of the 95 monitors to employee status significantly increased the firm’s direct
labor, cost allocation base. However, the firm’s indirect expenses would not have
increased in equal proportions to the direct labor costs. Consequently, the indirect cost
(overhead) rate should have been decreased, and the reduced rate should have been used
in establishing the fixed hourly rates under the amended contract. Although we requested
the engineering firm to provide us with their current indirect cost proposal, we were not
provided this information.

Without a cost or price analysis, the exact impact of the increased direct labor cost
allocation base on the firm’s indirect cost rate could not be determined. However, using
the firm’s direct labor costs and indirect expenses for the 10-month period ending
October 31, 2005, we estimated that the indirect cost rate could be reduced from 148.67
percent to about 96 percent. The impact of the reduction on the rates per hour charged
under the contract could be significant, especially considering that the amount of debris
that remains to be removed is greater than the amount that had been removed through



                                             2

March 31, 2006. Furthermore, we could not assess the reasonableness of the fixed labor
rates.

In March 2006, FEMA approved Project Worksheet No. 3816 for debris removal
monitoring activities. The obligated (eligible) amount was about $475,500.
Subsequently, based upon a review of “base monitoring rates” being charged by other
applicants in close proximity to St. Bernard Parish, FEMA reduced the obligated amount
for Worksheet No. 3816 by 24 percent. The 24 percent was applied to all levels of wages
included in the original Worksheet, even though the percent calculated was only based
upon a comparison of prevailing “base monitoring rates.” As revised, the new obligated
amount for the Worksheet was $368,372. In May 2006, the State sent a check for
$368,762 to the Parish for payment under Worksheet No. 3816.

A second Project Worksheet (No. 6456) was approved on June 23, 2006 for $11.7 million
to cover monitoring expenses most of which had already been incurred by the contractor.
The eligible amount for Worksheet No. 6456 was originally about $15.5 million.
However, during the FEMA and State review and approval process, the $15.5 million
requested amount was reduced by 24 percent to about $11.7 million.

According to Parish and contractor officials, a third Project Worksheet was being
prepared in June 2006, for an additional $25 million to cover the contractor’s future
debris monitoring costs.

FEMA and State officials acknowledged that a cost or price analysis should have been
performed and that the firm’s overhead rate should have been updated in conjunction
with the award of the non-competitive contract. However, FEMA and State officials
expressed concern that the non-competitively awarded contract was still in effect nearly a
year after Hurricane Katrina. During our exit briefing in August 2006, FEMA and State
officials confirmed that discussions were ongoing with Parish officials concerning the
need for a competitive contract for the monitoring services.

Parish and contractor officials concurred that a cost or price analysis was not conducted
when the non-competitive contract was awarded in December 2005. The officials also
concurred that the overhead rate used for the contract was the rate that had been
established in December 2003. In recognition of the Federal regulations, the officials
agreed to perform the required analysis and update the overhead rate. The officials also
agreed to delete the prohibited cost-plus-a-percentage of cost contract language from the
monitoring contract.

       Conclusion/Recommendation:

Because the possibility exists that the labor rates and the overhead rates were overstated,
the Parish and ultimately FEMA may have overpaid a substantial amount for the
contractor’s monitoring activities. The Parish should perform a cost or price analysis of
the monitoring contractor’s costs, including requiring the engineering firm to update its
overhead rate. If the labor rates and overhead costs are different, the revised hourly rates
under the contract should be appropriately changed, and the revised rates should be



                                             3

applied to the contractor’s debris removal monitoring claims under the non-competitive
contract. In addition, the contract should be modified to delete the cost-plus-a-percentage
of cost language as prohibited by Federal regulation.

Accordingly, we recommend that the Federal Coordinating Officer, in conjunction with
the State of Louisiana Office of Homeland Security and Emergency Preparedness
Agency, ensure that the St. Bernard Parish:

   1. 	 Performs an independent cost or price analysis of the monitoring contract using
        current labor rates and an updated overhead rate from the engineering firm,
   2. 	 Re-negotiates the fixed hourly rates in consideration of the results of the cost or
        price analysis and the updated overhead rate,
   3. 	 Applies the revised rates to the hours claimed by the engineering firm for the
        monitoring activities, and
   4. 	 Modifies the contract to delete the prohibited cost-plus-a-percentage of cost
        provision from the contract.

Ineligible Costs Claimed for Trees

The State reimbursed St. Bernard Parish for ineligible cuts of hanging branches from
trees. A FEMA review reported that nearly 50 percent of about 3,400 “hanger” cuts
claimed between December 6, 2005, and February 6, 2006 were ineligible cuts.
However, the FEMA review was not considered by the State during the invoice review
and approval process. As a result, the State reimbursed the Parish for the full amount
claimed, $431,185. If the results of the FEMA review had been considered, the
reimbursement would have been $222,070. Accordingly, we question $209,115
reimbursed under Project Worksheet Numbers 2050 and 3078 for ineligible cuts.

FEMA’s Debris Management Guide (FEMA 325) states that Public Assistance grant
funds may be used to remove hazardous limbs that are hanging in trees and that threaten a
public use area. The Guide defines hazardous limbs (hangers) as limbs greater than two
inches in diameter. The contractual agreements between St. Bernard Parish and the
debris removal contractor said hangers measuring two inches or more in diameter would
be removed for a unit price per hanger. The unit price varied depending upon the
diameter of the hanger. According to FEMA officials, only one cut per hanger was
eligible for reimbursement.

In February 2006, FEMA officials, located in St. Bernard Parish, performed a review of
hanger cuts claimed during the period of December 6, 2005 through February 6, 2006.
The review included 148 trees from which 3,421 cuts were claimed. As shown in the
following table, there were 1,677 discrepancies in the number of cuts claimed.




                                             4

                       Unit           Claimed 1               Discrepancies          Error
      Diameter
                       Price       Cuts     Costs         Cuts      Questioned       Rate
       2” - 4“         $ 115       2,806 $ 322,690         1,415     $ 162,725      50.43 %
       5”-12”          $ 175         557 $ 97,475            226     $ 39,550       40.57 %
      Over 12”         $ 190          58 $ 11,020             36     $ 6,840        60.07 %
         Totals                    3,421 $ 431,185         1,677     $ 209,115      49.02 %

The following are examples of the discrepancies reported from the FEMA review.

    • 	 The contractor made cuts that were less than the minimum 2 inches in diameter
        (According to a FEMA official, cuts of hangers that were less than 2 inches were
        the most frequent problem found during the FEMA review.)
    • 	 Some work was performed in a remote site that presented no hazard to the public
    • 	 Cuts were made on a tree that was dead prior to Hurricane Katrina and the cuts
        were not eligible for reimbursement
    • 	 Some trees claimed to have had hangers could not be located
    • 	 Only eleven (11) cuts could be identified on one tree even though 195 cuts had
        been claimed

According to the St. Bernard-based FEMA officials who performed the review, the
results were provided to the FEMA Operations Manager for Eastern Louisiana at the
Joint Field Office (JFO) in Baton Rouge, Louisiana. The St. Bernard-based FEMA
officials said the expectations were that appropriate adjustments would be made to the
Parish’s invoices. The officials also said they told Parish officials about the discrepancies
during a review of the Parish’s claims for hanger cost reimbursements. Although
documentation could not be located to support that the review results had been sent to the
FEMA Operations Manager at the JFO, we verified that the Parish was told of the
discrepancies in the Parish’s hanger cost reimbursement claims. The Parish’s monitoring
contractor was also aware that discrepancies had been identified.

FEMA officials at the JFO could not recall having seen the results of the review of
hanger claims from St. Bernard Parish. State officials located at the Joint Field Office
responsible for reviewing and approving Parish invoices also said they had no knowledge
of the FEMA review. As a result, the State officials approved the Parish’s invoices as
submitted, without adjusting for FEMA identified discrepancies.

FEMA and State officials agreed that the results of the FEMA review had been misplaced
within the JFO. The officials concurred that the review results should have been
considered during the invoice review and approval process.

St. Bernard Parish and contractor officials said they had been told that FEMA had
conducted a review of hanger cuts. However, the officials said that they had not seen the
results of the review. The officials did not concur that ineligible hanger cuts had been
claimed. The officials said FEMA monitors were present when the hangers were being

1
 Sample selected by FEMA involved Project Worksheet Numbers 2050 and 3078. The specific amounts
per Project Worksheet were not identified by FEMA.



                                                5

cut and that all cuts made, and subsequently claimed, were determined to be eligible
when the cuts were made. The officials requested that they be provided the opportunity
to review FEMA’s supporting documentation if FEMA and State officials determine that
adjustments should be made to approved invoices.

       Conclusion/Recommendation:

The review documentation received from the St. Bernard-based FEMA officials provided
sufficient evidence to support that the $209,115 approved for ineligible hanger cuts
should have been disallowed. Accordingly, we consider the $209,115 to be a questioned
cost.

We recommend that the Federal Coordinating Officer, in conjunction with the State of
Louisiana Office of Homeland Security and Emergency Preparedness Agency:

   1. 	 Request the St. Bernard-based FEMA officials to resubmit the review results for
        consideration,
   2. 	 Require FEMA and State officials at the JFO to review the review results and
        determine the adjustments that should be made to the previously approved St.
        Bernard Parish invoices,
   3. 	 Disallow all costs associated with cuts determined to be ineligible based upon the
        FEMA and State JFO officials review,
   4. 	 Disallow all costs determined to be unallowable, and
   5. 	 Require FEMA to clarify its guidance on removing hangers and modify training
        to ensure that future claims are according to FEMA policy.

Questionable Costs Claimed Under the Monitoring Contract

Costs claimed by the Parish’s monitoring contractor were excessive for certain activities
related to the monitoring of debris removal. The rates per hour charged by monitoring
contractor officials were not reasonable for the monitoring work performed. In addition,
some of the direct costs claimed appeared to be for general management activities. Our
review identified about $84,600 of unreasonable and duplicative claims during the
months of September and October 2005. At the time of our review, the State had not
reimbursed the Parish for the $84,600 claimed by the monitoring contractor.

According to 2 CFR Part 225, allowable costs must be necessary and reasonable for
proper and efficient performance and administration of Federal awards. In addition, costs
must be accorded consistent treatment, i.e., a cost may not be assigned as a direct cost if
any other cost incurred for the same purpose has been allocated to the Federal award as
an indirect cost.

Furthermore, according to FEMA’s Public Assistance Guide, Publication 322, a cost is
reasonable if, in its nature, it does not exceed that which would be incurred by a prudent
person under the circumstances prevailing at the time the decision was made to incur the
cost. A reasonable cost is a cost that is both fair and equitable for the type of work being
performed. Consideration should be given to the type of work and whether the



                                             6

individuals concerned acted with prudence in conducting the work. Publication 322
provides that reasonable costs can be established from several sources, including through
average costs for similar work in the area.

Based upon our review of the contractor’s supporting documentation, about $84,600 of
claimed costs, under Project Worksheet No. 3816, for supervisory engineering activities
were not reasonable for the work performed. For example, one official essentially
worked full time as an engineer on debris removal and billed his time at the rate of $161
an hour. According to this official, his rate was justified because the work required
engineering expertise, and the firm was a small firm that did not have employees to
perform the engineering work that had to be performed. However, the firm had several
registered engineers working under the contract. The billing rate for the registered
engineers averaged $95.57 per hour.

Furthermore, the Parish allowed the monitoring contractor to claim direct costs for
activities that appeared to be general management in nature rather than in direct support
of the Parish’s debris monitoring activities. Because general management activity costs
are included in the calculation of indirect labor rates, and the indirect cost rates are used
to establish the fixed hourly rates under a contract, charging general management
activities as direct costs resulted in duplicative claims for the same activities. The
following are examples of the activities that we consider to be general management in
nature:

   •   Communicating with Parish officials on contract matters
   •   Attending status meetings with Parish officials
   •   Organizing inspectors
   •   Reviewing “cleanup contract” and discussing contract needs with FEMA
   •   Attending progress meetings and working on progress reports

FEMA and State officials concurred that the costs claimed must be reasonable and that
duplicative claims should be disallowed. The officials said specific attention will be
given to the condition being reported during the invoice review and approval process.

Parish and contractor officials did not concur that unreasonable or duplicate costs had
been claimed. With respect to the reasonableness of the rates claimed, the officials said
the rates were reasonable because the work performed was debris removal related and
was also in support of engineering aspects of the contract with the Parish.

With respect to the duplicative claims, the officials said the work performed was
appropriately claimed by the contractor as a direct cost, and that the hours claimed were
not for general management activities. That is, the type of work performed was not
included as indirect costs in the calculation of the firm’s overhead rate. In view of the
examples identified during our review, the Parish and contractor officials agreed to
review the costs claimed to ensure that duplicative claims were not made.




                                              7

           Conclusion/Recommendation:

The Parish’s invoices included unreasonable rates for activities that were not fair and
equitable for the type of work being performed by the monitoring contractor. In addition,
duplicative claims resulted from general management activities being charged as direct
costs. The costs claimed by the monitoring contractor should be reviewed to ensure that
the rates claimed were reasonable for the work performed and were not duplicated as
direct and indirect costs. The results of the review should be considered along with the
results of FEMA’s 24 percent reduction in the obligated amount for the Project
Worksheets discussed above.

We recommend that the Federal Coordinating Officer, in conjunction with the State of
Louisiana Office of Homeland Security and Emergency Preparedness Agency, require
the Parish to:

      1. 	 Review all current and future costs claimed by the monitoring contractor to ensure
           that:
               a. 	 The hourly rates being applied are fair and equitable in relation to the type
                    of work being performed, and
               b. 	 The time claimed is directly in support of the debris monitoring activities
                    as compared to being general management in nature, and
      2. 	 Disallow any claims that were based upon unreasonable rates or that were 

           duplicated as direct and indirect costs. 


Improved Controls Needed for Load Ticket Processing

Improvements were needed to the process for handling load tickets for debris removal.
Load tickets provided the basis for the debris removal contractor to invoice St. Bernard
Parish for cubic yards of debris hauled truck-by-truck from residential areas to the
temporary landfills and from the temporary landfills to the permanent landfill. The load
tickets management process contained an internal control weakness that could allow
bogus tickets to be processed without being detected. As a result, inflated invoices could
be approved and the contractor could get paid for debris that was not removed from the
Parish.

According to the “Standards for Internal Control in the Federal Government,” published
by the U.S. Government Accountability Office, 2 internal controls serve as the first line of
defense in safeguarding assets and preventing and detecting errors and fraud. Control
activities are an integral part of an entity’s planning, implementing, reviewing, and
accountability for stewardship of government resources and achieving effective results.
Key duties and responsibilities need to be divided or segregated among different people
to reduce the risk of error or fraud. No one individual should control all key aspects of a
transaction or event. Additionally, the standards state that physical control must be
established to secure and safeguard vulnerable assets.


2
    Formerly the General Accounting Office



                                                8

The load ticket management process was a high risk process because inventories of
tickets were maintained at three office locations and several people handled the tickets
before the tickets were completed and submitted in support of contractor invoices.

The driver’s copy of the five-part load ticket was not always crosschecked with the
copies of the load tickets used to prepare and support weekly invoices from the debris
removal contractor. The driver’s copy of a load ticket was the verification that a delivery
to a landfill was actually made. Although our review did not disclose that bogus tickets
had been processed, we identified several opportunities within the load ticket
management process where someone could - ----------------------- ---------------------
---------------------------------------------------- -----------------------------------------------------
------ ------- ------- --------------- ------ ----- --------- -------------- ----- -----------------------
-------------------------------------------------- ---------------------------------------------
-------------------------------------------------------------- - --- ------------------ -------------
--------------------------------- ------------------------------------------------------------------
-------------- -------- - ----------------- -------------- ------------------------ ------------------------
----- --

FEMA, State, Parish, and contractor officials concurred that an internal control weakness
existed. Parish and contractor officials said the ticket management process had been
modified, as suggested during our review, to require the site monitor to keep a copy of
the load ticket for reference by the monitoring contractor during the invoicing process.

         Conclusion/Recommendation:

-------------------------------------------- ------------ - -------------------------------------------- ---
------------------------------------------------------- ---------- ----------------- ------------- - ------
------------------------------------------------------------------------- ---------------------------------
----------------------------------------------------------------------------------------------------------
------------ - ------------------------------------------ - ---

Accordingly, we recommend that the Federal Coordinating Officer, in conjunction with
the State of Louisiana Office of Homeland Security and Emergency Preparedness
Agency, ensure that St. Bernard Parish appropriately modified and implemented the load
ticket management process to require:

    1. 	 The site monitor to:
            a. 	 Keep a copy of each load ticket when a truck is loaded and ready to be
                 sent to the landfill, and
            b. 	 Give the copy of each ticket to his/her supervisor at the end of each day,

    2. 	 The supervisor to accumulate the tickets and provide the tickets to the monitoring
         contractor’s staff involved in verifying the legitimacy and accuracy of the
         invoices received from the debris removal contractor, and




                                                     9

    3. 	 The contractor staff to check the tickets received from the site monitor with the
         copy of each ticket received from the tower monitor, and reconcile any
         differences.

Improved Accuracy Needed in Determining Debris Hauled

Visual inspections of individual trucks did not result in accurate judgments of the cubic
yards hauled to the temporary landfills. Comparisons of cubic yard calls 3 by more than
one monitor for the same truck showed inconsistencies in the cubic yard judgments.
Recognizing that truly accurate calls are not possible from a visual inspections, we
conservatively estimated, based upon a 4.3 percent variance in monitor calls, that the
$31.2 million claimed for the debris hauled through March 31, 2006, could have ranged
from between $29.9 and $32.5 million.

According to 2 CFR Part 225, government units are responsible for the efficient and
effective administration of Federal awards through the application of sound management
practices. The basic guidelines under the CFR provide that allowable costs must be
necessary and reasonable for proper and efficient performance and administration of
Federal awards.

All debris picked up by the debris removal contractor was required to go to a temporary
landfill in St. Bernard Parish for visual measurement. From a tower, a contract monitor
looked into each truck and judgmentally determined the cubic yards in the truck. A
FEMA monitor acted as an observer but also made a judgment call for each truck. The
FEMA call was recorded on a log that was not shared with the contract monitor. The
debris contractor based the weekly invoices only on the cubic yards determined by the
contract monitor.

The difficulty in visually judging the cubic yards per truck was compounded by the type
of debris and/or how well a truck was loaded, e.g., compactly loaded versus loosely
loaded. For example, trucks hauling hazardous materials were required to be wrapped
and covered in plastic to prevent spillage as the truck was driven to a landfill. The plastic
cover made it very hard to estimate how much or what had been loaded into the truck.

In our sample of over 400 trucks, the visual calls by two different monitors varied by
about 4.3 percent. The calls by the monitors for 59 (about 14 percent) of the over 400
trucks varied by more than 10 percent. The calls by the contract monitor and the FEMA
monitor were supposed to be independent. However, from a test conducted during our
review, the range of variances in a controlled environment was significantly greater than
when the two monitors were working alone in the tower. During our test, the differences
between independent calls ranged from between 9 and 15 percent per truck.

At the contract cost of $23.70 per cubic yard, the cost of the 1,316,000 cubic yards hauled
to the temporary landfill through March 31, 2006 was about $31.2 million. The existence

3
 As each truck passed under a tower, monitors looked into the truck to determine the number of cubic
yards hauled to the temporary landfill. These judgments were referred to as “calls.”



                                                   10

of the 4.3 percent variance means that this cost could have been as low as $29.9 million
or as high as $32.5 million. We consider this to be a conservative range because of the
higher variances observed during our review.

Internet-based research supported that portable scales could be purchased for $60,000 to
$70,000, plus shipping and installation charges. The cost to rent a portable scale was
estimated between $4,000 and $4,500 per month. According to our research, truck scales
are readily available and could be installed within 5 days of an order. The rental cost
would include delivery, installation, calibration, and maintenance.

FEMA, State, Parish, and contractor officials acknowledged that errors occur when the
volume of debris removed from the Parish is determined by visual inspection. FEMA
and State officials emphatically agreed that weighing trucks was a better methodology.
The officials suggested that FEMA should probably consider the weighing methodology
for FEMA-wide application.

Parish and contractor officials did not concur. The officials expressed concerns with
converting to weighing trucks for the remainder of the Parish’s debris. The concerns
included contract negotiation and monitoring implications.

       Conclusion/Recommendation:

With nearly 4.0 million cubic yards of debris remaining to be removed from the Parish,
the methodology for determining the cost of debris removal should be converted from
cubic yards to weight. The conversion would require changing the contract cost basis
from cubic yards to weight. However, FEMA and contractor officials agreed that an
agreed upon rate per ton could be negotiated. The methodology would include weighing
each truck as it enters the landfill and then again after its load was dumped. Using scales
would also be more efficient because the number of monitors needed at the landfill could
be reduced. Some monitoring personnel would still be required, but the portable scales
would process the weight of the truck and print out the results for use in the invoicing
process.

Accordingly, we recommend that the Federal Coordinating Officer, in conjunction with
State of Louisiana Office of Homeland Security and Emergency Preparedness Agency
and St. Bernard Parish officials, convert to weight rather than cubic yards as the basis for
determining the cost of removing debris from the Parish.

OTHER NOTABLE RESULTS:

FEMA requires applicants for Public Assistance funding to follow specific guidelines in
order to receive benefits. Coordination and communication are needed at various FEMA,
State and subgrantee levels to consistently and successfully (1) implement the guidelines
and (2) expedite debris removal efforts. Delays in the project worksheets and payment
processes, as well as the setting of consistent guidance on policies impacted the debris
removal progress in the Parish.




                                             11

Project Worksheets and Payments Processes

Delays in the preparation, review, and approval processes for Project Worksheets
delayed debris removal within the Parish. The first Project Worksheet was not approved
until about five months after Hurricane Katrina struck St. Bernard Parish.

Project Worksheets contain the information needed for FEMA to approve the scope of
work and cost estimate prior to funding debris removal projects. The Project Worksheet
must be approved (funds obligated) in order for the applicant to be reimbursed for debris
removal efforts. The prime contractor in St. Bernard Parish started removing debris on
September 16, 2005. FEMA assigned an official to prepare and coordinate the first
Project Worksheet (PW 2050) in mid November 2005. PW 2050 was approved by
FEMA in late January 2006. By the end of March 2006, FEMA had approved eight
Project Worksheets for debris removal work. Many of the Project Worksheets were
delayed for months while various FEMA reviews occurred. According to St Bernard
Parish and contractor officials, neither FEMA nor the state provided adequate
explanations as to why delays occurred or what could be done to help expedite the
process.

The approved Project Worksheets did not include all periods of time when debris had
been removed. As a result, Worksheet revisions were needed to ensure that the Parish
could be reimbursed for incurred expenses. For example, debris was picked up in
February 2006, but a Project Worksheet had not been prepared to cover February
expenses.

FEMA, State and St. Bernard Parish officials said that delays in Project Worksheet
approvals and payments to the Parish were also affected by other ongoing concerns.
First, the magnitude of debris throughout St. Bernard Parish and the Gulf Coast limited
FEMA’s ability to assign personnel to prepare Project Worksheets in a timely manner.
The volume of debris removal efforts created by Hurricane Katrina significantly
complicated and delayed the Project Worksheet preparation, review, and approval
process. Second, FEMA and State officials were actively working with St. Bernard
Parish to achieve reasonable rates for the debris removal contract. FEMA and State
officials were reluctant to approve Project Worksheets until reasonable contract pricing
rates were reached between St. Bernard Parish and the debris removal contractor. These
negotiations continued from December 2005 to March 2006. Third, although St. Bernard
Parish was awarded $32 million in emergency funding shortly after the Hurricane Katrina
disaster, the State insisted that the expenditures for these funds be properly documented
before reimbursing the Parish. While waiting for adequate documentation on the
emergency funding, the State opted to delay payment to St. Bernard Parish for debris
removal efforts.

During the delays in the Project Worksheet approvals and invoice payments, the St.
Bernard Parish debris removal contractor continued to remove debris, paying its workers
and subcontractors from its own resources until early March 2006. The contractor then
cited financial problems and stopped debris removal for a three-week period. On March
31, 2006, the State paid St. Bernard Parish $23 million for debris removal work



                                           12

completed. The Parish then paid the contractor for some of its past work and debris
removal work resumed. The period of work stoppage that resulted from the contractor
not being paid for over six months likely contributed to the relatively low percentage of
debris removed from the St. Bernard Parish in comparison to other parishes in Louisiana.

The debris monitoring contractor in St. Bernard Parish also struggled financially while
waiting for Project Worksheet approvals and payments. According to the monitoring
contractor, continued delays in receiving reimbursement for its monitoring efforts in the
future could impact its debris monitoring efforts and further delay debris removal.

Commercial Debris Removal Policy Implementation

St. Bernard Parish has experienced setbacks in its efforts to remove a large volume of
commercial properties debris. 4 According to FEMA policy, debris can be removed from
commercial property and be eligible for FEMA reimbursement when such removal is in
the public interest. FEMA, State and local officials must agree as to when commercial
debris is eligible for public assistance funding. However, there were inconsistencies in
FEMA guidance governing the pickup of the commercial debris. According to Parish
and contractor officials, the inconsistencies created confusion and uncertainty as to what
could or could not be collected for removal.

Immediately following the Hurricane, FEMA authorized the removal of commercial
debris. Then, in late October 2005, FEMA rescinded its authorization to pick up
commercial debris.

In December 2005, FEMA reconsidered it position on picking up commercial debris and
reauthorized that the Parish could be reimbursed for commercial debris pick up. At that
time, FEMA and the State of Louisiana agreed on eligibility criteria for commercial
debris removal, including storm-generated debris.

However, in February 2006, FEMA informed the State that--unless there was prior
FEMA approval--construction and demolition debris removed from commercial buildings
may not be moved to the curbside for pickup under the FEMA Public Assistance
Program. As a result, St. Bernard Parish could not be reimbursed for the removal of
storm-generated debris from commercial properties, and the accumulation of large
amounts of commercial debris led to health, safety and economic concerns.

In April 2006, St Bernard Parish asked FEMA for approval to remove the commercial
debris along the public right of way. However, FEMA did not approve the request until
June 2006. The Parish began to aggressively pick up the commercial debris following
FEMA approval.

FEMA and State officials acknowledged that different interpretations of FEMA policies
had occurred with respect to the removal of commercial debris. The officials agreed that
inconsistent interpretations had delayed the economic recovery of the Parish. According

4
    As of June 2006, an estimate of the amount of commercial debris to be removed did not exist.



                                                      13

to St. Bernard Parish officials, both residential and commercial debris concerns need to
be addressed to allow the Parish to economically recover and for the residents to safely
return to their homes.

DISCUSSIONS WITH MANAGEMENT

The results of the review were discussed with DHS/FEMA, State, Parish, and contractor
officials. The comments received during the discussions have been incorporated, as
appropriate, into the RESULTS OF THE AUDIT section of the report. Actions planned
or taken in response to the review have also been incorporated into the report.




                                            14

                                                                                      Attachment I
                             Department of Homeland Security

                                Office of Inspector General 

                         State of Louisiana – Saint Bernard Parish 

                            Review of Debris Removal Activities 


            Schedule of Approved Project Worksheets as of March 31, 2006

                       Project                                    Total Amount
                                              Activity
                      Worksheet                                    Approved
                        2050             Debris Removal            $ 17,987,638
                        2496 5           Debris Removal            $          0
                        2573             Debris Removal            $     67,283
                        3078             Debris Removal            $ 70,725,651
                        3812             Debris Removal            $    243,018
                        3442             Debris Removal            $     40,656
                        3658             Debris Removal            $ 9,358,200
                        3816            Debris Monitoring          $    480,306
                                        Total                      $ 98,902,752




5
 Project Worksheet No. 2496 was approved for over $22 million, but was subsequently de-obligated
because the debris covered by the Worksheet was determined to be ineligible debris.



                                                 15
                                                                           Attachment II
                           Department of Homeland Security
                              Office of Inspector General
                       State of Louisiana – Saint Bernard Parish
                          Review of Debris Removal Activities

                          Objectives, Scope, and Methodology

The objective of Foxx & Company’s review of ongoing Hurricane Katrina debris
removal activities in St. Bernard Parish, Louisiana was to determine whether the awarded
contracts and contractor billings were in compliance with applicable Federal criteria.
Foxx also reviewed selected aspects of the overall management of debris removal and
monitoring within the Parish because of the magnitude of the devastation, the volume of
debris created by Katrina, and the length of time that it will take to complete the removal
process. The scope of the review included all debris removal and monitoring activities
managed by St. Bernard Parish during the period August 29, 2005 and March 31, 2006.

The Department of Homeland Security, Office of Inspector General (DHS/OIG) is
reporting the results of the audit to appropriate DHS officials. Foxx & Company
discussed the review results in draft with cognizant DHS, State of Louisiana, and Parish
officials. The comments received were incorporated, as appropriate, within the body of
the report.
Foxx & Company’s methodology included reviewing all contract types, procurement
methods, reasonableness of contract rates, compliance with Federal requirements, and
cost/price analyses performed by the Parish. We also reviewed contractor billings
through March 31, 2006, to determine whether the amounts claimed for incurred
expenses were appropriately supported, accurate, and according to applicable laws and
regulations.

Foxx & Company performed the work at the Joint Field Office in Baton Rouge, FEMA’s
area offices in New Orleans, St. Bernard Parish’s government offices, contractor
locations, and at the temporary and permanent landfill locations. The nature and brevity
of this review precluded the use of our normal review protocols. Therefore, this review
was not conducted according to Generally Accepted Government Auditing Standards.
Had we followed such standards, other matters may have come to our attention.




                                            16

                                                                     Attachment III
                           Department of Homeland Security

                              Office of Inspector General 

                       State of Louisiana – Saint Bernard Parish 

                          Review of Debris Removal Activities 


                                   Report Distribution

Department of Homeland Security

Secretary
Deputy Secretary
Executive Secretariat
Chief of Staff
General Counsel
Under Secretary for Management
Chief Financial Officer
Chief Information Officer
Assistant Secretary for Public Affairs
Assistant Secretary for Policy
Assistant Secretary for Legislative Affairs
Chief Security Officer
DHS Audit Liaison

Office of Grants and Training

Acting Executive Director
Director, Office of Grant Operations
OIG Liaison


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner


Congress

Oversight and Appropriations Committees, as appropriate




                                              17

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
